            Recovery Accountability and Transparency Board
                    1717 Pennsylvania Avenue NW, Suite 700
                          Washington DC 20006-4614



February 23, 2010



From: Calvin L. Scovel III
      Chairman, Recovery Funds Working Group Committee

To:    Chairman Devaney


I am pleased to provide you the final report, "Recovery Act Data Quality: Errors
in Recipient Reports Obscure Transparency," which the Recovery Accountability
and Transparency Board reviewed and approved on February 19, 2010.
RECOVERY ACT DATA QUALITY:
   ERRORS IN RECIPIENTS'
    REPORTS OBSCURE
      TRANSPARENCY

       Date Issued: February 23, 2010




             Prepared by the
       Office of Inspector General
   U. S. Department of Transportation
                                         The Inspector General                   Office of Inspector General
                                                                                 Washington, D.C. 20590
U.S. Department of
Transportation
Office of the Secretary
of Transportation

February 23, 2010



The Honorable Earl E. Devaney
Chairman
Recovery Accountability and Transparency Board
Washington, D.C.

Dear Chairman Devaney:

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provides
$787 billion in Federal funds to jump-start the economy, create or save jobs, and
invest in long-term economic growth. To ensure these funds are spent wisely, the
Recovery Act calls for unprecedented levels of transparency and accountability,
requiring certain fund recipients, including state and local government agencies
and contractors, to provide quarterly reports on their use of $275 billion in
Recovery Act grants, loans, and contracts. These reports are to include almost 100
data elements, such as the type, date, and amount of award; project description;
and the number of jobs created on each project. Federal agencies are to perform
data quality reviews of this information and notify recipients of data errors that
need to be corrected before reports are made available on www.Recovery.gov—a
website specifically designed to provide the public with Recovery Act data that are
transparent and easily retrievable.

For the first reporting cycle ending October 29, 2009, 130,362 recipient award
reports had been posted on the www.Recovery.gov website.                         On
November 19, 2009, you testified that the data were “riddled with inaccuracies and
contradictions.” 1 In one case, a $10 million contract was recorded as a $10 billion
contract due to a misplaced decimal. Recipients also reported incorrect or


1
    Testimony of the Honorable Earl E. Devaney Chairman, Recovery Accountability and Transparency
    Board, Before the Committee on Oversight and Government Reform, United States House of
    Representatives, November 19, 2009. Recovery Act testimony statements can be accessed on the
    Recovery Act website at: www.Recovery.gov.
                                                                                                          2


nonexistent congressional districts. Additionally, some recipients simply did not
comply with the law to submit reports on their use of Recovery Act funds.

To promote accountability and transparency on the use of Recovery Act funds, the
Recovery Accountability and Transparency Board (Recovery Board) 2 worked with
Federal Inspectors General to establish a multi-phased approach for reviewing
agency oversight of Recovery Act recipient data. The first phase, conducted
before the start of the first recipient reporting cycle, provided a snapshot of
agencies’ data review processes. 3 The second phase, conducted after the first
reporting cycle ended, was a review of data oversight at seven agencies—the
Departments of Defense (DoD), Education, Health and Human Services (HHS),
Justice (DOJ), Interior, and Transportation (DOT) and the General Services
Administration (GSA)—by their respective Office of Inspectors General (OIG).

This report summarizes the results of the second phase reviews. Specifically, it
describes (1) identified data errors and omissions in recipients’ first cycle reports
and factors that may have contributed to them and (2) actions taken by agencies,
the Office of Management and Budget (OMB), and the Recovery Board to
improve the quality of the data that recipients will submit in future reporting
cycles.

The information in this report is based on an analysis of agency responses to a
questionnaire DOT OIG developed in conjunction with the other OIGs. Using the
standardized questionnaire, OIGs obtained anecdotal information from their
respective agencies on the most prevalent data errors, causes of inaccurate or
missing data, and efforts to improve the quality of the data recipients submitted.
The OIGs reviewed their agencies' responses, conducted follow-up work when
necessary, and submitted the final responses to DOT OIG. The agencies' reviews
were conducted from December 2009 to January 2010. Exhibit A contains
additional details on the objective, scope, and methodology.




2
    The Recovery Accountability and Transparency Board was created by the American Recovery and
    Reinvestment Act of 2009 with two goals: (1) to provide transparency in relation to the use of Recovery-
    related funds and (2) to prevent and detect fraud, waste, and mismanagement. Twelve Inspectors
    General from various Federal agencies serve with Chairman Earl E. Devaney. The Recovery Board
    issues quarterly and annual reports to the President and Congress, and if necessary, “flash reports” on
    matters that require immediate attention.
3
    Department of Health and Human Services OIG Report No. A-09-10-01002, "Summary of Inspectors
    General Reports on Federal Agencies' Data-Quality Review Processes," November 2009. Recovery Act
    reports can be accessed on the Recovery Act website at: www.Recovery.gov.
                                                                                                                 3




Results In Brief
Each of the seven agencies reviewed had identified a number of inaccuracies in
the data that Recovery Act fund recipients provided for the first reporting cycle.
The most prevalent errors were in key award and job elements. For example, one
recipient received an award of $3.5 million but reported only $367,000. The seven
agencies also identified more than 3,300 recipients who did not report data for the
first cycle. 4 Having complete and accurate data are critical for showing the public
how, when, and where its tax dollars are being spent and assessing the Recovery
Act's impact on the economy. Surveyed agencies found several factors that
contributed to errors and recipients' failure to report, including misinterpretation of
guidance and technical challenges.

In December 2009, OMB issued updated guidance in an effort to improve the
quality of recipient reported data. The guidance now requires Federal agencies to
provide recipients with detailed award information for key data elements—most of
which were identified as containing the most prevalent errors by the seven
agencies surveyed. The Recovery Board and Federal agencies have also taken
steps aimed at improving the quality of recipient data. For example, the Recovery
Board has enhanced the automated recipient reporting system to alert users of
potential data errors. A majority of the seven Federal agencies surveyed also
stated that they developed or updated their tools to electronically check for
significant errors or anomalies. Finally, all seven agencies stated that they have, at
a minimum, updated their guidance on Recovery Act reporting requirements.

Background
The Recovery Act requires certain recipients of Recovery Act funds to provide
quarterly reports, beginning in October 2009, with specific details about the funds
they received. The reports are to include the total amount of funds received, a list
of projects for which the funds are being used, and information about the number
of jobs created or saved as a result of the funds received. On June 22, 2009, OMB
issued guidance 5 to Federal agencies and funding recipients with information to
effectively implement reporting requirements on the use of Recovery Act funds.
OMB, the Recovery Board, Federal agencies, OIGs, and recipients all share
responsibility for data quality. The guidance requires that prime recipients enter
their data into www.FederalReporting.gov, the online web portal for collecting all

4
    For the first reporting cycle, of the 134,721 prime recipients required to report in the first reporting cycle,
    Federal agencies identified 4, 359 that failed to report.
5
    OMB Memorandum for the Heads of Departments and Agencies, M-09-21, “Implementing Guidance for
    the Reports on Use of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
    June 22, 2009.
                                                                                                  4


Recovery Act recipient award reports. The guidance also requires that within 22
to 29 days after each quarter (October 22, 2009, to October 29, 2009), Federal
agencies are to perform a limited data quality review of the information submitted
and notify recipients if two key data problems are found—material omissions and
significant reporting errors. For example, for the quarter ending September 30,
2009, between October 22 and October 29, 2009, Federal agencies were to
perform a limited data quality review and notify fund recipients of any key data
problems found.

In September 2009, as part of the multi-phased reviews being conducted by the
Recovery Board in conjunction with OIGs responsible for Recovery Act oversight,
21 Offices of Inspector General assessed whether their agencies had processes for
conducting limited data quality reviews of recipient award reports. The OIGs
found that 17 of the 21 agencies had designed processes to identify significant
errors and material omissions. However, the reviews did not test the effectiveness
of the agencies' processes nor did they look at the accuracy of any specific data
elements. In November, GAO found that while recipients had made good faith
efforts to ensure complete and accurate reporting, there was a range of significant
reporting and quality issues that needed to be addressed, such as erroneous or
questionable data entries and full-time equivalent calculations for jobs.

On December 18, 2009, 2 weeks before the start of the second reporting cycle,
OMB updated its guidance 6 to further improve the quality of the data Recovery
Act recipients submitted. The guidance incorporates lessons learned from the first
reporting cycle outlining steps Federal agencies should take to identify non-
reporting recipients and bring them into compliance; and it simplifies how job
estimates are calculated and reported.

Agencies Identified Inaccuracies and Contributing Factors
For the first reporting cycle, each of the seven agencies identified a number of
inaccuracies—most prevalent were errors in key award and job elements—and
over 3,300 missing reports. Surveyed agencies found several factors that
contributed to these errors and omissions including misinterpretation of guidance
and technical challenges.

Errors in Key Award and Job Elements Were the Most Prevalent
The most common inaccuracies in recipients’ first quarterly reports were in key
award identification and job elements (see Table 1). Accurate data in these


6
    OMB Memorandum for the Heads of Departments and Agencies, M-10-08, "Updated Guidance on the
    American Recovery and Reinvestment Act--Data Quality, Non-Reporting Recipients, and Reporting of
    Job Estimates," December 18, 2009.
                                                                                                 5


elements are critical for showing the public how, when, and where its tax dollars
are being spent and in assessing the Recovery Act's impact on the economy.

Table 1: Description and Importance of Key Award Identification and
Job Elements
Description                                     Importance
Data Universal Numbering System (DUNS) number
A unique 9-digit number assigned to             Allows agencies and the public to identify and
businesses and other entities doing business    track businesses receiving Recovery Act funds.
with the government. Currently, there are
more than 100 million businesses worldwide
with DUNS numbers.
Treasury Account Symbol (TAS) code/
Catalog of Federal Domestic Assistance (CFDA) number
A unique number that identifies both the        Allows agencies and the public to identify and
Federal agency and the funding program          track the source of Recovery Act funding at the
source.                                         agency, as well as the program level.
Awarding Agency code/Funding Agency code
Unique 4-digit codes for the Federal agency     Allows agencies and the public to identify and
that awards/distributes Recovery Act funds to   track the agencies that awarded and funded
recipients.                                     Recovery Act grants and loans.
Award number/date/amount
A unique identifier assigned by the agency to   Provides agencies and the public with specific
individual grants or loans, date awarded, and   information on each Recovery Act grant or loan
total amount of Recovery Act funds received.    awarded.
Jobs number
An estimate of the number of jobs created or Provides Federal agencies and the public with
retained.                                        the impact of the Recovery Act.
Source: OIG Analysis of Recovery Act Reporting Guidance

The seven agencies identified numerous instances of incorrect award identification
and job data. While many descriptions of these errors were general, such as the
recipient entered the wrong DUNS number—one DOJ office found that 31 percent
of the data inaccuracies it identified resulted from incorrect DUNS numbers—
more specific descriptions of errors were also provided. For example:

    • DOT officials identified 1,200 jobs that were erroneously listed under the
      Veterans Administration because the Iowa Department of Transportation
      entered the wrong funding agency code.

    • Education officials found that one state incorrectly used the Treasury
      Account Symbol (TAS) code for the Department of Homeland Security
      instead of the code for Education for 3 of its 11 awards.
                                                                                                          6



       • Interior officials found that one recipient reported 10,000 jobs created for a
         $5.25 million award. Based on the data, the 10,000 people earned, on
         average, an annual salary of $525, well below the minimum wage required
         under the Recovery Act provisions.

       • GSA officials found one recipient who incorrectly reported an award
         amount of $367,000 when the actual award amount was $3.5 million.

At OMB's request, all Federal agencies identified about 4,400 Recovery Act
recipients who failed to submit a report during the first reporting cycle. Six of the
seven OIGs participating in this second phase review validated their agency's list
of non-reporters—a total of 1,499 non-reporters or 34 percent of the total agencies
reported. 7 OIGs identified an additional 38 recipients that the agencies should
have identified as non-reporters. OIGs also identified 39 recipients that should not
have been listed as non-reporters—27 were duplicates and 12 had reported. 8
Generally, agencies identified recipients who failed to report by comparing their
universe of award recipients (using various internal and external databases) to
reports extracted from www.FederalReporting.gov.

Federal Agencies Identified Several Factors that Contributed to
Report Errors
The seven agencies identified several factors that contributed to errors discovered
in recipient award reports. The most common factors were (1) recipients
misinterpreting OMB and agency guidance, (2) technical challenges, (3) recipients
not knowing or having incorrect codes or numbers, and (4) human error.

For example, HHS officials told us that many of their recipients had difficulty
understanding OMB's guidance on estimating jobs because it required many
complicated calculations, particularly for cost-of-living adjustments. In some
cases where recipients realized that mistakes had been made, they were unable to
change agency identified errors because of limitations within the recipient
reporting system. In another instance, one agency's review of 22 recipient award
reports found multiple errors in the award, order, and DUNS number data
elements. However, the recipients were not able to correct the errors because the
recipient reporting system did not allow these elements to be changed once a
report was submitted.

Regarding recipients who failed to submit reports, OMB required all Federal
agencies to contact non-reporters to determine the specific reasons they had not

7
    The list of non-reporters for DoD was not validated.
8
    One agency accounted for 30 of the 39 recipients that should not have been listed as non-reporters.
                                                                                   7


submitted reports. In response to their inquiries, agencies learned that generally,
technical challenges and misinterpreting OMB and agency guidance were the
reasons for recipients' failure to report. For example, some recipients reported that
they were unable to submit a report to www.FederalReporting.gov because they
did not have a valid Federal reporting personal identification number. Other
recipients reported that they were not aware they were required to report. For
example, some DOJ recipients who received a Recovery Act grant in September
2009, failed to report because they had not accepted the award by
September 30, 2009.

OMB, Recovery Board, and Agencies Have Taken Actions
Intended to Improve the Quality of Recipient Award Reports
Before the first reporting cycle, most Federal agencies had established data quality
review processes and contacted recipients to clarify reporting requirements. For
example, GSA established an outreach call center to provide recipients with
registration, reporting, and data quality review information. Agencies, when
conducting data quality reviews, also used a variety of automated and manual
quality checks to assess recipient provided/reported data. According to agency
officials, when significant errors were identified they contacted recipients or
flagged the data and provided comments in www.FederalReporting.gov. Despite
these efforts, a substantial number of data inaccuracies were still identified. In an
effort to further improve the quality of reported data, OMB issued updated
guidance in December 2009, and the Recovery Board and Federal agencies have
also taken steps aimed at improving the quality of recipient data.

OMB’s updated guidance outlines steps Federal agencies must take to improve the
quality of Recovery Act data, report job estimates, and have recipients comply
with reporting requirements. To better ensure that recipients have the correct
award data readily available to enter into the recipient reporting system, Federal
agencies are now required to provide each recipient with detailed award
information for eleven key data elements. These elements closely align with those
identified by the seven agencies as containing the most prevalent errors (see Table
2).
                                                                                                    8


Table 2: Comparison of OMB's List of Data Elements Federal
Agencies Are Now Required To Provide to Recipients with
Surveyed Agencies Prior Reporting Errors
Data Elements                                 Agencies Must Provide        Had Significant Errors
                                             to Recipients for Second      During First Reporting
                                                 Reporting Cycle                   Cycle
Activity Code                                             
Award Amount                                                                          
Award Date                                                                            
Award Number                                                                          
Award Type                                                
Awarding Agency Code                                                                  
CFDA Number                                                                           
DUNS Number*                                                                           
Funding Agency Code                                                                   
Government Contracting Office Code                        
Jobs Number*                                                                           
Order Number                                              
TAS Code                                                                           
Source: OMB and Federal agencies
* Agencies cannot provide, and are not required to provide recipients with the DUNS or job numbers
  because this information is determined by the recipients.

OMB's updated guidance also reemphasized that Federal agencies should focus
their data quality review efforts, at a minimum, on significant errors and material
omissions. However, OMB guidance now defines significant errors as inaccurate
information within four data elements: (1) award amount, (2) jobs retained or
created, (3) award number, and (4) recipient name. It also defines material
omissions as a failure of a Recovery Act recipient to report on an award as
required by the terms of that award. Further, agencies must provide OMB a
summary of their significant errors and a list of recipients who failed to report.

Further, OMB simplified how job estimates are calculated and reported. During
the first reporting cycle, a significant number of recipients and the Government
Accountability Office (GAO) 9 expressed concern with the complex process for
reporting job estimates. In response, OMB modified its guidance to require
recipients to report job estimates on a quarterly, rather than cumulative basis.
Additionally, it no longer requires recipients to determine if a job was created or
retained but to report only whether jobs are funded by Recovery Act dollars.


9
    GAO Report, GAO-10-223, "Recovery Act: Recipient Reported Jobs Data Provide Some Insight Into
    Use Of Recovery Act Funding, But Data Quality and Reporting Issues Need Attention," November 2009.
                                                                                   9


OMB’s new guidance also encourages Federal agencies to focus their data quality
efforts on possible data inconsistencies across elements that are logically related.
For example, if an agency code indicates that the agency issues grants only, then
contracts should not appear under that code. During the second reporting cycle,
the Recovery Board began analyzing recipient award reports for such data
inconsistencies and providing the results to agencies for further review.

The Recovery Board has also taken action to improve the quality of data submitted
by recipients. Specifically, it has enhanced the Recovery Act recipient reporting
system (www.FederalReporting.gov) by adding both hard and soft edit checks.
Hard edit checks generate an error message and will not accept the report when a
recipient enters inconsistent information in certain elements, such as a
congressional district that does not match the zip code or an amount received that
is greater than the amount awarded. As a result, during the second reporting cycle
the Recovery Board did not find any reports with incorrect or nonexistent
congressional districts. Soft edit checks generate an alert message for certain
elements but will still accept the report if the recipient enters information that is
questionable, such as entering a large dollar value (e.g., $500,000) into the field
for amount received and reporting the number of jobs created as less than one.
Also, the Recovery Board doubled the number of its help desk staff to answer
registration and reporting questions from recipients and provided training to over
4,000 individuals on Recovery Act reporting requirements.

Finally, the seven agencies noted that they have taken steps to improve the quality
of recipient reported data for the second reporting cycle. For example, all seven
agencies surveyed stated that they had modified their data quality review
processes to better align with OMB's updated guidance or have updated their
frequently asked questions and answers, tip sheets, or guidance regarding
Recovery Act reporting requirements or both. Further, a majority of the seven
Federal agencies surveyed stated that they developed or updated their tools to
electronically check for significant errors or anomalies.

Observations
Complying with Recovery Act requirements to provide unprecedented levels of
transparency has been a daunting task for Federal agencies and recipients. While a
large number of fund recipients met the first quarterly reporting requirement, the
reliability and accuracy of these reports remain in question—despite Federal
agencies’ good faith efforts to ensure recipients submitted accurate, complete, and
timely data on the use of funds. The actions taken by OMB, the Recovery Board,
and Federal agencies to date and the high level of cooperation among stakeholders
should go a long way in improving the quality of these data. In moving forward,
however, further action will be needed by these entities to meet the level of
                                                                             10


accountability called for in the Recovery Act. Of particular concern is the need
for timely and executable reporting guidance from OMB, continued enhancements
to the recipient reporting system by the Recovery Board, and continued outreach
and improved data quality review processes from Federal agencies. Coordination
and heightened vigilance will be critical to addressing these concerns.

DOT OIG appreciates the courtesies and cooperation of the Offices of Inspector
General, Recovery Board staff, and Federal agency officials during this review.
We provided a draft of the report to OIGs and agencies that participated in the
review and incorporated their comments, as appropriate. If you have any
questions concerning this report, please call me at (202) 366-1959, or Madeline
Chulumovich, Special Assistant for Economic Recovery, at (202) 366-6512.


Sincerely,




Calvin L. Scovel III
Chairman
Recovery Funds Working Group Committee
Recovery Accountability and Transparency Board

                                       #
                                                                                  11

Exhibit A. Objectives, Scope, and Methodology
In December 2009, seven Office of Inspectors General (OIG)—Department of
Defense (DoD), Education, Health and Human Services (HHS), Justice, Interior,
and Transportation (DOT); and the General Services Administration (GSA)—
initiated a review of their agencies' oversight of Recovery Act recipient reporting
during the first reporting period ending on October 29, 2009. The objectives of
this review were to determine whether each participating OIG's agency:
(1) identified inaccurate data or missing recipient award reports, (2) identified the
cause(s) of the inaccurate data or missing recipient award reports, and
(3) mitigated the causes and errors. To address these objectives, the participating
OIGs conducted expeditious reviews of their respective agencies to identify
actions taken to ensure the data submitted by Recovery Act recipients was
accurate, complete, and timely.

DOT OIG, serving as the lead OIG, developed a data collection instrument or
questionnaire that laid out standard questions that each of the seven OIGs were to
ask their respective agency. Using the questionnaire, OIGs obtained anecdotal
information from their agency on the most prevalent errors, causes of the
inaccurate or missing data, and efforts to improve the quality of the data submitted
by recipients during the first recipient reporting cycle. The OIGs reviewed their
agencies' responses and conducted follow-up work, when necessary. The OIGs
also provided the agencies with data anomalies identified by the Recovery Board.
Agencies were asked to review these reports and determine whether these
anomalies were identified during their data quality reviews.

Six of the OIGs validated their agencies' lists of Recovery Act fund recipients who
failed to submit reports to www.FederalReporting.gov in October 2009, as
required. The OIGs developed their own methodologies to validate the lists,
which included conducting electronic and manual comparisons of recipient lists
with downloaded data from www.Recovery.gov and checking the results of those
comparisons with their agencies' lists of recipients who failed to report. The lists
of recipients were generated using internal agency databases, such as Education's
Grants Administration and Payment System, and downloading lists of awards
published on websites such as, www.USAspending.gov, www.fpds.gov, and
www.FedBizOpps.gov, which contain information on Federal contracts, grants,
and loans.

The seven OIGs submitted the results of their reviews to DOT OIG, which
analyzed the data for common themes and consolidated the results into one report.
These reviews were not conducted in accordance with Generally Accepted
Government Auditing Standards, but were planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for the information
and conclusions contained in this report. The reviews were conducted from
December 2009 through January 2010.

Exhibit A. Objectives, Scope, and Methodology
